                                          NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                     CLOSEOUT MEMORANDUM

Case Number: A12120082                                                          Page 1 ofl


         In the results of prior support section of a recent proposal (the proposall), the PI2
         listed a large number of papers as being supported by his previous grant (the
         grantS). Our analysis revealed over half of the papers listed were not supported by
         the grant. Some papers were submitted before the grant was awarded, while some
         acknowledged the PI's other NSF grants. We also reviewed the'final project report
         for the grant and found a small number of papers inaccurately attributed to the
         grant, but the majority of papers were accurately listed.
         We wrote to the PI, who explained the circumstances surrounding the preparation
         of the proposal. He mostly focused on the project description and inadvertently
         used an older list of NSF -supported papers. He noted using an old listing meant not
         only were old papers listed that should not have been, but recent papers that should
         have been listed were not. He was embarrassed by the errors and acknowledged
         the need to pay more attention to all parts of future proposals.
         We found the PI's explanation well-thought-out and credible. We sent the PI a
         letter reminding him of his need to treat all parts of a proposal carefully.
         Accordingly, this case is closed with no further action taken.




              1
              2
              3




NSF OIG Form 2 (11/02)
